Appendix A

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL07 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JASPER CROOK,

No. 20-56269

Plaintiff - Appellant,
v.

D.C. No. 5:20-cv-01154-JGB-SHK
U.S. District Court for Central
Cal ifornia, Rivers! de__________

ROBIN SHEA,
MANDATE
Defendant - Appellee.

The judgment of this Court, entered March 09, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF [COURT
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

V\t

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUN29 2021
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

JASPER CROOK,

No.

Plaintiff-Appellant,
v.

ROBIN SHEA,

20-56269

D.C. No. 5:20-cv-01154-JGB-SHK
Central District of California,
Riverside
ORDER

Defendant-Appellee.
Before: M. SMITH, BADE, and BUMATAY, Circuit Judges.
Appellant has filed a combined motion for reconsideration and motion for
reconsideration en banc (Docket Entry No. 8).
The motion for reconsideration is denied and the motion for reconsideration
en banc is denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord.
6.11.
No further filings will be entertained in this closed case.

MN/MOATT

'h 6 6

9

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 9 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JASPER CROOK,

No. 20-56269

Plaintiff-Appellant,

D.C.No. 5:20-cv-01154-JGB-SHK
Central District of California,
Riverside

v.

ROBIN SHEA,

ORDER
Defendant-Appellee.

Before: M. SMITH, BADE, and BUMATAY, Circuit Judges.
Upon a review of the record, the response to the order to show cause, and the
opening brief received on February 3, 2021, we conclude this appeal is frivolous.
We therefore deny appellant’s motion to proceed in forma pauperis (Docket Entry
No. 3), see 28 U.S.C. § 1915(a), and dismiss this appeal as frivolous, pursuant to
28 U.S.C. § 1915(e)(2) (court shall dismiss case at any time, if court determines it
is frivolous or malicious).
----- DISMISSED:

MN/MOATT

3I

?>\

Case 5:20-cv-01154-JGB-SHK Document 29 Filed 10/29/20 Page 1 of 4 PagelD#:154

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES-GENERAL
Case No.

Title

r

EDCV 20-1154 JGB(SHKx)

Date

October 29, 2020

WtelKrV’mojfO \ahL4{UsA

Present: The Honorable

JESUS G. BERNAL, UNITED STATES DISTRICT JUDGE

MAYNOR GALVEZ

Not Reported

Deputy Clerk

Court Reporter

Attorney(s) Present for Plaintiff(s):

Attorney(s) Present for Defendant(s):

None Present

None Present

Proceedings:

Order (1) DENYING Plaintiffs Motion for Reconsideration (Dkt. No. 26); and
(2) VACATING November 2, 2020 Hearing (IN CHAMBERS)

Before the Court is Plaintiff's motion for reconsideration. ("Motion," Dkt. No. 26.) The
Court determines this matter is appropriate for resolution without a hearing. See Fed. R. Civ. P.
78; L.R. 7-15. After reviewing the parties' submissions, the Court DENIES Plaintiff's Motion, and
VACATES the November 2, 2020 hearing.
i.

BACKGROUND

On June 8, 2020, Plaintiff Jasper Crook filed a Complaint against Robin Shea
("Defendant"). ("Complaint," Dkt. No. 1.) The Complaint alleges one cause of action: damages
resulting from libel defamation. (Id. 25.) Jurisdictional allegations include that the action is
for damages in excess of $75,000 and that both Plaintiff and Defendant are citizens of
California. (JcLinil, 3.)
Plaintiff filed two deficient requests for entry of default, and the Clerk directed him to
resubmit the requests. (Dkt. Nos. 12,13,17,18.) On July 16, 2020 Plaintiff filed a third request
for entry of default, (Dkt. No. 19), which the Clerk granted on July 20, 2020. ("Entry of Default,"
Dkt. No. 20.)
Plaintiff filed a Motion for Default Judgment on July 10, 2020, prior to the Clerk's entry
of default against Defendant. (Dkt. Nos. 14-16.) The Court denied the Motion for Default
Page 1 of 4

CIVIL MINUTES-GENERAL

Initials of Deputy Clerk N£

Case 5:20-cv-01154-JGB-SHK

Document 29

Filed 10/29/20

Page 2 of 4

Page ID #:155

Judgment on August 7, 2020, and ordered Plaintiff to show cause by August 31, 2020, why the
action should not be dismissed for lack of subject matter jurisdiction. (Dkt. No. 21.) On
September 3, 2020, Plaintiff filed a Response to the OSC. {Dkt. No. 23.) Defendant filed a
Motion to Set Aside Default on August 21, 2020. (Dkt. No. 22.)
On September 30, 2020, the Court issued an Order dismissing the case for lack of
subject matter jurisdiction, and denying as moot the Motion to Set Aside Default. ("September
30 Order," Dkt. No. 25.) Plaintiff filed this Motion for Reconsideration on October 16, 2020,
(Mot.), followed by a Declaration of Jasper Crook, ("Crook Declaration," Dkt. No. 27).
Defendant filed an Opposition on October 23, 2020. ("Opposition," Dkt. No. 28.)
II. LEGAL STANDARD
Rule 60(b) provides for relief from a final judgment, order, or proceeding upon a
showing of the following:
(1) mistake, inadvertence, surprise, or excusable neglect; (2) newly discovered
evidence that, with reasonable diligence, could not have been discovered in time
to move for a new trial under Rule 59(b); (3) fraud (whether previously called
intrinsic or extrinsic), misrepresentation, or misconduct by an opposing party; (4)
the judgment is void; (5) the judgment has been satisfied, released or
discharged; it is based on an earlier judgment that has been reversed or vacated;
or applying it prospectively is no longer equitable; or (6) any other reason that
justifies relief.
Fed. R. Civ. P. 60(b).
In this district, motions for reconsideration are also governed by Central District Local
Rule 7-18. "Courts in this district have interpreted Local Rule 7-18 to be coextensive with Rules
59(e) and 60(b)." Tawfilis v. Allergan. Inc.. 2015 WL 9982762, at *1 (C.D. Cal. Dec. 14, 2015).
Local Rule 7-18 provides that a motion for reconsideration of the decision on any motion may
be made only on the grounds of:
(a) a material difference in fact or law from that presented to the Court before
such decision that in the exercise of reasonable diligence could not have been
known to the party moving for reconsideration at the time.of such decision, or
(b) the emergence of new material facts or a change of law occurring after the
time of such decision, or (c) a manifest showing of a failure to consider material
facts presented to the Court before such decision. No motion for reconsideration
shall in any manner repeat any oral or written argument made in support of or in
opposition to the original motion.
L. R. 7-18. "Unhappiness with the outcome is not included within the rule; unless the moving
party shows that one of the stated grounds for reconsideration exists, the Court will not grant a
Page 2 of 4

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk NP

Case 5:20-cv-01154-JGB-SHK

Document 29

Filed 10/29/20

Page 3 of 4

PagelD#:156

reconsideration/' Roe v. LexisNexis Risk Sols. Inc., 2013 WL 12134002, at *2 (C.D. Cal. May 2,
2013).
III. DISCUSSION
Plaintiff moves the Court to reconsider its Order dismissing the case for lack of subject
matter jurisdiction. (See September 30 Order.) The Court finds that Plaintiff's Motion fails to
show any cognizable grounds to alter that Order.
Plaintiff repeats many of the arguments from his Response to the OSC, which the Court
has already considered and rejected. Plaintiff argues that "[t]he federal court has jurisdiction
over all matters in law and equity including common law within the United States borders
involving United States citizens." (Mot. at 4.) That is incorrect. As the Court pointed out in its
Order, "(fjederal courts are courts of limited jurisdiction, possessing only that power authorized
by Constitution and statute." Gunn v. Minton. 568 U.S. 251, 256 (2013). That is in keeping with
Article 3 of the U.S. Constitution, which does not establish broad federal jurisdiction over all
cases, as Plaintiff suggests, but instead empowers federal courts to handle controversies over
federal law and enumerated areas that do not apply here.
Thus, contrary to his claims, Plaintiff is not entitled to bring his case in federal court
simply by virtue of being "a United States citizen, beneficiary, and administrator of these
lands." (Mot. at 4.) Nor can Plaintiff create federal jurisdiction by paying the required filing fee
of $400.00. (Mot. at 4.) This filing fee does not buy federal jurisdiction. Rather, for a federal
court to have jurisdiction over a matter, there must be (1) a federal question, or (2) diversity of
citizenship between the parties and a controversy exceeding $75,000. See 28 U.S.C. §§
1331, 1332. As the Court explained in its Order, neither exists here. (See generally September
30 Order.) Instead, Plaintiff appears to assert libel claims, which arise out of state law. Maves
v. Wells Fargo Bank. 2012 WL 12897433, at *1 (C.D. Cal. Aug. 1, 2012); Opp'n at 3-4. Plaintiff
cannot manufacture a federal question by asserting general Constitutional rights that do not
apply to the facts alleged in the Complaint nor substantiate Plaintiff's claim of libel.
Plaintiff's argument about the timeliness of Defendant's filings is also unavailing. As the
Court explained, pursuant to the Federal Rules of Civil Procedure, "[ijf the court determines at
any time that it lacks subject-matter jurisdiction, the court must dismiss the action." Fed. R.
Civ. P. 12(h)(3). After considering Plaintiff's Complaint and Response to the OSC, the Court
found that it lacks subject matter jurisdiction.
While Plaintiff may be unhappy with the Court's determination (and the limits of federal
jurisdiction more broadly), unhappiness with the outcome is not grounds for reconsideration.
Roe v. LexisNexis Risk Sols. Inc.. 2013 WL 12134002, at *2 (C.D. Cal. May 2, 2013). The Court
DENIES Plaintiff's Motion.
//
//
//
//
Page 3 of 4

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk NP

Case 5:20-cv-01154-JGB-SHK Document 29 Filed 10/29/20 Page 4 of 4 PagelD#:157

IV.

CONCLUSION

For the foregoing reasons, the Court DENIES Plaintiffs motion for reconsideration.
IT IS SO ORDERED.

Page 4 of 4

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk NP

Case 5:20-cv-0U54-JGB-SHK Document25 Filed 09/30/20 Page lot4 PagelD#:122

JS-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES-GENERAL
Case No.

Date ! September 30, 2020

EDCV 20-1154 JGB (SHKx)

Title | Jasper Crook v. Robin Shea

Present: The Honorable

JESUS G. BERNAL, UNITED STATES DISTRICT JUDGE

MAYNOR GALVEZ

Not Reported

Deputy Clerk

Court Reporter

Attorney(s) Present for Plaintiff(s):

Attorney(s) Present for Defendant(s):

None Present

None Present

Proceedings:

Order (1) DISMISSING Case for Lack of Subject Matter Jurisdiction; and (2)
DENYING AS MOOT Defendant's Motion to Set Aside Default (Dkt. No. 22)
(IN CHAMBERS)

On August 7, 2020, the Court ordered Plaintiff Jasper Crook to show cause why this
action should not be dismissed for lack of subject matter jurisdiction. ("OSC," Dkt. No. 21.)
Plaintiff responded to the OSC on September 3, 2020. ("Response to OSC," Dkt. No. 23.) For
the reasons that follow, the Court finds that it does not have subject matter jurisdiction and
DISMISSES the case without prejudice to Plaintiff filing the case in state court. The Court
DENIES AS MOOT Defendant's Motion to Set Aside Default (Dkt. No. 22).
I.

BACKGROUND

On June 8, 2020, Plaintiff Jasper Crook filed a Complaint against Robin Shea
("Defendant"). ("Complaint," Dkt. No. 1.) The Complaint alleges one cause of action: damages
resulting from libel defamation. (Id. II 25.) Jurisdictional allegations include that the action is
for damages in excess of $75,000 and that both Plaintiff and Defendant are citizens of
California. (Id
1, 3.)
Plaintiff filed two deficient requests for entry of default, and the Clerk directed him to
resubmit the requests. (Dkt. Nos. 12,13,17,18.) On July 16, 2020 Plaintiff filed a third request
for entry of default, (Dkt. No. 19), which the Clerk granted on July 20, 2020. ("Entry of Default,"
Dkt. No. 20.)
Page 1 of 4

CIVIL MINUTES-GENERAL

Initials of Deputy Clerk NP

Case 5:20-cv-01154-JGB-SHK

Document 25

Filed 09/30/20

Page 2 of 4

PagelD#:123

Plaintiff filed a Motion for Default Judgment on July 10, 2020, prior to the Clerk's entry
of default against Defendant. (Dkt. Nos. 14-16.) The Court denied the Motion for Default
Judgment on August 7, 2020, and ordered Plaintiff to show cause by August 31, 2020 why the
action should not be dismissed for lack of subject matter jurisdiction. (Dkt. No. 21.) On
September 3, 2020, Plaintiff filed his Response to the OSC.
Defendant filed a Motion to Set Aside Default on August 21, 2020, with an
accompanying Motion to Dismiss, challenging the Clerk's Entry of Default and the underlying
defects with the Complaint. (Dkt. No. 22.) Plaintiff did not file an opposition.
II. LEGAL STANDARD
"Federal courts are courts of limited jurisdiction, possessing only that power authorized
by Constitution and statute." Gunn v. Minton. 568 U.S. 257, 256 (2013). As such, federal courts
only have original jurisdiction over civil actions in which (1) a federal question exists, or (2)
complete diversity of citizenship between the parties exists and the amount in controversy
exceeds $75,000. See 28 U.S.C. §§ 1331,1332. A plaintiff properly invokes federal question
jurisdiction when she pleads a colorable claim "arising under" the Constitution or laws of the
United States. See Bell v. Hood. 327 U.S. 678, 681-85 (1946). Federal courts have a duty to
examine their jurisdiction sua sponte. See FW/PBS. Inc, v. Dallas. 493 U.S. 215, 231
(1990); United Investors Life Ins. Co. v. Waddell & Reed Inc.. 360 F.3d 960, 967 (9th Cir. 2004).
"If the court determines at any time that it lacks subject-matter jurisdiction, the court
must dismiss the action." Fed. R. Civ. P. 12(h)(3).
III.

DISCUSSION

Plaintiff's Response to the OSC argues that the Court has subject matter jurisdiction
because the case concerns several constitutional rights and federal statutes. For the reasons
described below, this Response is insufficient to confer subject matter jurisdiction on this Court.
A. Diversity Jurisdiction
In the OSC, the Court explained that the Complaint did not adequately allege the
requirements of diversity jurisdiction. To establish diversity jurisdiction, the parties must be
citizens of different states, and the matter in controversy must exceed $75,000. See 28 U.S.C.A.
§ 1332(a). However, according to the Complaint, both Plaintiff and Defendant are citizens of
the State of California. (Compl. HH 1-4.) In his Response to the OSC, Plaintiff does not refute
that both parties are California citizens, but rather states that he is "unaware if Defendant has
residency in other states." (Response to OSC at 3.) This does not meet the requirements of
diversity of citizenship. Therefore, there is no subject matter jurisdiction pursuant to Section
1332.
B. Federal Question Jurisdiction
Page 2 of 4

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk N£

Case 5:20-cv-01154-JGB-SHK

Document 25

Filed 09/30/20

Page 3 of 4

PagelD#:124

As the Court explained in the OSC, although the Complaint asserts jurisdiction "under
the Seventh Amendment" and Fed. R. Civ. P. 38, (Compl. H 5), these sources involve the right to
a jury trial and are not bases for federal court jurisdiction. In response, Plaintiff asserts that
Defendant violated three federal statutes: 18 U.S.C. §§ 1038 (false information and hoaxes),
1623 (false declarations before grand jury or court), and 876 (mailing or threatening
communications). None of these allegations are legally tenable.
Plaintiff may not bring a claim under 18 U.S.C. § 1623 because "that provision is a
criminal statute and does not create, explicitly or implicitly, any civil liability." Fabbri v.
Sheraton Plaza La Reina Hotel. 956 F.2d 1166 (9th Cir. 1992); see also Norwood v. Calle, 2014
WL 12617346, at *1 (C.D. Cal. Mar. 21, 2014) (finding that court had no subject matter
jurisdiction over Section 1623 claim because it is a "criminal law[], and do[es] not provide
Plaintiff a private right of action"). Similarly, "Section 876 is a criminal statute which does not
provide a private cause of action." Manuel v. Thomas. 967 F.2d 588 (9th Cir. 1992). A claim
under 18 U.S.C. § 1038 similarly fails. Section 1038 authorizes "criminal and civil penalties
when a person provides false information or conducts a hoax with respect to crimes ... [of a
particular military or defense nature]." Cohen v. Nevada. 2007 WL 4458174, at *2 n.2 (D.Nev.
Dec. 13, 2007). However, section 1038 is limited to hoaxes regarding a narrow range of military
and infrastructure-related threats. Jianiun Xie v. Oakland Unified Sch. Dist.. 2012 WL 5869707,
at *7 (N.D. Cal. Nov. 19, 2012). Therefore, it is inapplicable to the allegations here.
Plaintiff also asserts several constitutional rights. Plaintiff alleges that he has "a right
protected under and recognized by the 9th amendment and the 10th amendment, to retain his
right to his good name and reputation free from erroneous printed libel." (Response to OSC at
1.) Plaintiff also alleges Sixth, Ninth, Tenth, and Fourteenth Amendment rights to bring this
action. (Id. at 2.) But none of these amendments apply to the facts alleged in Plaintiff's
Complaint, nor does Plaintiff explain how these constitute cognizable causes of action over
which the Court has original jurisdiction.1 These claims cannot support subject matter
jurisdiction in this case.
Plaintiff instead appears to assert libel claims, which arise out of state law rather than
federal law. Maves v. Wells Fareo Bank. 2012 WL 12897433, at *1 (C.D. Cal. Aug. 1, 2012) ("An
action for libel arises under state law."). Thus, there is no subject matter jurisdiction pursuant
to Section 1331.

i

Plaintiff cites to Noonan v. Staples, seemingly to support a Constitutional libel claim,
but his own excerpt acknowledges that the case "applies] Massachusetts law." (Response to
OSC at 1-2.)

Page 3 of 4

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk NP

Case 5:20-cv-01154-JGB-SHK Document 25 Filed 09/30/20 Page 4 of 4 PagelD#:125

IV.

CONCLUSION

The Court concludes that subject matter jurisdiction does not exist and DISMISSES the
case without prejudice to Plaintiff filing this matter in state court.
Defendant's Motion to Set Aside Default is DENIED AS MOOT.
IT IS SO ORDERED.

Page 4 of 4

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk NP

